                  CLOSEOUT MEMORANDUM FOR M97110046

        On 27 November 1997, an NSF program officer' brought allegations of misconduct in
science to our attention. An ad-hoc reviewer2 (complainant 1) of the subject's3 NSF proposal4
alleged that the proposal contained text copied from a published paper (the paper), which had not
been cited appropriately.s A second complainant6 (complainant 2) alleged that the subject's
proposal to do research as a faculty member at his institution contained text copied from the
subject's former post-doctoral advisor's7 NSF proposal,8 submitted at the same time as the
subject's proposal. In addition, complainant 2 alleged that the subject's proposal contained
several research projects that were essentially the same as those in the advisor's proposal and
that neither proposal disclosed that both requested support for the subject. Consequently, it
appeared that the subject was seeking duplicate funding for essentially similar research projects.

        With respect to the alleged copied text from the advisor's NSF proposal, the subject
stated that he was the primary author of the text. He said he prepared much of the information
when he was a post-doctoral researcher in his advisor's laboratory. At the subject's request, the
advisor wrote to us explaining that the subject had been the primary author of the common text.
We determined that there was no substance to the allegation that the subject had copied text from
his advisor's proposal.

        With respect to the allegedly similar research projects, the subject explained that both
proposals addressed similar questions, but that his proposal used an entirely different technique
and emphasized different questions than those in his advisor's proposal. The written comments
by a panelist9 who reviewed both the subject's and the advisor's proposals, described the
research proposed in the two proposals as different in the proposed techniques and anticipated
results. We determined that there was no substance to the allegation that the subject sought
duplicate funding for the same research projects.

        With respect to the duplicate requests for support for the subject's post-doctoral position
in the two proposals, the subject explained that he had discussed this issue with the program
officer, who told him that this was all right to do given the circumstances. The program officer
said that he remembered having several conversations with the subject. However, the program
officer explained that he did not make diary notes of conversations that did not require any
specific action on his part and he characterized such a conversation with the subject about this
matter as one that would not have resulted in a diary note. The program officer said that the
conversation could have occurred, but he could not recall any details. There is no substance to



                                        Footnotes Redacted




                                           Page 1 of 2
                                                                          . ...

*

                      CLOSEOUT MEMORANDUM FOR M97110046

    the allegation that the subject inappropriately sought duplicate funding for the post-doctoral
    position if both were funded.

            The allegedly copied text from the paper consisted of about two paragraphs and included
    a mathematical formula, its derivation and. its description. In his response, the subject
    characterized this as paraphrased text and that he had cited the source document twice within the
    copied text. We confirmed that he had cited the source document, but disagreed with the
    subject's characterization of this copied text as paraphrased; the subject had transcribed text
    verbatim from the paper. The subject deviated from accepted practice when he copied, verbatim,
    about a paragraph of text from the paper in his proposal. However, we determined, in this case,
    that the deviation was not sufficiently serious to proceed to an investigation.

            We were concerned that the subject may not have understood the difference between
    verbatim plagiarism and paraphrasing of text. We requested that the subject review the
    difference between paraphrasing and verbatim copying and correct the proposal to accurately
    identify and attribute text or ideas that were either copied or paraphrased from others' work. The
    subject sent a corrected copy of the relevant pages of the proposal to the program officer. We
    verified that the subject had adequately addressed all the issues related to the copied text and that
    the corrected pages had been placed in the program jacket.

           This case is closed and no further action will be taken.

    cc: Investigative Scientist, Investigations, Attorney, IG




                                                Page 2 of 2                                 M97-46
